No. _________
IN THE
SUPREME COURT OF THE UNITED STATES
SHAWN C. RUTLAND,
Petitioner,
v.
WARDEN, SMITH STATE PRISON,
Respondent.
On Petition for Writ of Certiorari
To The Eleventh Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI
Laura D. Hogue
Georgia Bar No. 786090
Attorney for Petitioner
Hogue Hogue Fitzgerald & Griffin, LLP
341 Third Street
Macon, GA 31201
(478) 750-8040

QUESTION PRESENTED FOR REVIEW
In this case, the district court dismissed Petitioner’s
28 U.S.C. § 2254 petition as being untimely under
AEDPA, finding that Petitioner was not entitled to
equitable tolling of AEDPA’s one year statute of
limitations. On appeal, the Eleventh Circuit
concluded that Petitioner may have been entitled to
equitable tolling based upon misleading instructions
of the trial court at sentencing that he had four years
from the date of conviction in which to file any type
of habeas petition, which could have included a
federal habeas petition. Nevertheless, the circuit
court affirmed the district court’s dismissal of the
petition, finding that equitable tolling would lapse
the instant Petitioner hired counsel to file a state
habeas petition on his behalf, even though that date
was 20 months after the one-year federal habeas
deadline had passed. The question presented for
review is:
Did the Eleventh Circuit opinion improperly
create a new bright-line rule, unsupported by
authority and in derogation of principles of
equity and of the discretion afforded to district
courts, that equitable tolling of the one-year
statute of limitation of AEDPA for filing a §
2254 habeas petition automatically lapses the
moment a petitioner procures assistance of
counsel?

i

PARTIES TO THIS PROCEEDING



Shawn C. Rutland, Petitioner
Stanley Williams, Warden, Smith State
Prison, Respondent

RELATED PROCEEDINGS


State of Georgia v. Shawn Rutland, No. 07-CR61701, Bibb Superior Court. Judgment entered
Dec. 5, 2007.



Shawn Rutland v. State of Georgia, No.
A08A2372, Georgia Court of Appeals.
Judgment entered Mar. 5, 2009.



Shawn Rutland v. State of Georgia, No.
A10A0281, Georgia Court of Appeals.
Judgment entered Mar. 3, 2010.



Shawn Rutland v. Stanley Williams, Warden,
Smith State Prison, No. 2013-SU-HC-68,
Tattnall Superior Court. Judgment entered
Feb. 2, 2015.



Shawn Rutland v. Stanley Williams, Warden,
Smith State Prison, No. S15H0933, Georgia
Supreme Court. Judgment entered Jun. 1,
2015.



Shawn Rutland v. Stanley Williams, Warden,
Smith State Prison, Civil Action No. 5:16-CV182, United States District Court for the
Middle District of Georgia. Judgment entered
Jun. 16, 2017.
ii



Shawn Rutland v. Warden, Smith State
Prison, No. 17-13226, United States Court of
Appeals for the Eleventh Circuit. Judgment
entered May 23, 2019. Order Denying
Rehearing entered Jul. 17, 2019.

iii

TABLE OF CONTENTS
Question Presented for Review . . . . . . . . . . . . . . . i
Parties to this Proceedings. . . . . . . . . . . . . . . . . . . ii
Related Proceedings . . . . . . . . . . . . . . . . . . . . . . . . ii
Table of Authorities. . . . . . . . . . . . . . . . . . . . . . . . .vi
Opinions and Orders Below. . . . . . . . . . . . . . . . . . 1
Statement of Jurisdiction. . . . . . . . . . . . . . . . . . . . 2
Statutes Involved in Case . . . . . . . . . . . . . . . . . . . . 3
Statement of the Case. . . . . . . . . . . . . . . . . . . . . . . 4
Reasons for Granting the Writ . . . . . . . . . . . . . . . .11
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25
APPENDIX
Opinion of the Eleventh Circuit Court of
Appeals affirming the district court’s dismissal
of Petitioner’s § 2254 petition, entered
May 23, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Opinion of the Eleventh Circuit Court of
Appeals denying Petition for Rehearing and
for Rehearing En Banc, entered July 17, 2019 . . . . 9
Opinion of Eleventh Circuit Court of Appeals
granting Certificate of Appealability, entered
October 17, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

iv

Judgment of the District Court for the Middle
District of Georgia dismissing Petitioner’s
§ 2254 petition and denying a Certificate of
Appealability, entered June 16, 2017. . . . . . . . . . . 20
Order of the District Court for the Middle
District of Georgia adopting Magistrate’s Report
and Recommendation and granting Respondent’s
Motion to Dismiss, entered June 16, 2017 . . . . . . . 21
Report and Recommendation of Magistrate
Judge for the Middle District of Georgia
recommending the granting of Respondent’s
Motion to Dismiss Petitioner’s § 2254 petition,
entered on March 23, 2017. . . . . . . . . . . . . . . . . . . . 25
Petitioner’s Response to Motion to Dismiss,
filed with District Court for the Middle
District of Georgia, on October 4, 2016 . . . . . . . . . . 38
Motion to Dismiss Petition as Untimely, filed
with the Middle District of Georgia, on
September 13, 2016 . . . . . . . . . . . . . . . . . . . . . . . . . 59
Petition Under 28 U.S.C. § 2254 for a Writ of
Habeas Corpus, filed with the Middle District
of Georgia, on May 18, 2016 . . . . . . . . . . . . . . . . . . 62
Order of the Georgia Supreme Court denying
Application for Certificate of Probable Cause,
entered on June 1, 2015 . . . . . . . . . . . . . . . . . . . . . 82
Order of the Georgia Supreme Court denying
Motion for Reconsideration, entered on
July 6, 2015. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83

v

TABLE OF AUTHORITIES
United States Supreme Court
Cal. Pub. Employees' Ret. Sys. v. ANZ Sec., Inc.,
137 S. Ct. 2042, 198 L.Ed.2d 584 (2017). . . . . . . . . 24
Holland v. Florida, 560 U.S. 631, 130 S. Ct.
2549 (2010).. . . . . . . . . . . . . . . . . . . . . . . 12, 17, 19, 20
Pace v. DiGuglielmo, 544 U.S. 408, 125 S. Ct.
1807 (2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Pliler v. Ford, 542 U.S. 225, 124 S. Ct. 2441
(2004). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
United States Circuit Courts of Appeal
Arthur v. Allen, 452 F.3d 1234 (11th Cir. 2006). . . .13
Booth v. United States, 914 F.3d 1199 (9th
Cir. 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Brinson v. Vaughn, 398 F.3d 225 (3rd Cir.
2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
Grant v. Swarthout, 862 F.3d 914 (9th Cir.
2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
Knight v. Schofield, 292 F.3d 709 (11th Cir.
2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Lawrence v. Florida, 421 F.3d 1221 (11th Cir.
2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14
Mashburn v. Comm'r, Ala. Dep't of Corr.,
No. 15-11408 (11th Cir. Oct. 26, 2017). . . . . . . . . . 21
vi

Prieto v. Quarterman, 456 F.3d 511 (5th Cir.
2006). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21, 22
Riddle v. Kemna, 523 F.3d 850 (8th Cir. 2008). . . 15
Rudin v. Myles, 781 F.3d 1043 (9th Cir. 2015). . . .16
Rutland v. Warden, Smith State Prison, No. 1713226 (11th Cir. May 23, 2019). . . . . 8, 18, 19, 23, 24
Sossa v. Diaz, 729 F.3d 1225 (9th Cir. 2013). . . . . 21
Spottsville v. Terry, 476 F.3d 1241 (11th Cir.
2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 14, 20
Tinker v. Moore, 255 F.3d 1331 (11th Cir. 2001) . 12
Torres v. Long, 527 F. App’x 652 (9th Cir.
2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
United States v. Patterson, 211 F.3d 927 (5th
Cir. 2000). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Vazquez v. Sec'y, Florida Dep't of Corrections,
827 F.3d 964 (11th Cir. 2016). . . . . . . . . . . . . . . . . 11
Webster v. Moore, 199 F.3d 1256 (11th Cir. 2000). 12
Federal Statutes
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1291. . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
28 U.S.C. § 2241. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2244(d). . . . . . . . . . . . . . . . . . . . . . . 3, 11
vii

28 U.S.C. § 2254. . . . . . . . . . . . . . . . . . . 2, 11-16, 24
State Appellate Courts
Rutland v. State, A10A0281 (Ga. App.
Mar. 3, 2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Rutland v. Williams, S15H0933 (Ga.
Jun. 1, 2015). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

viii

Opinions Below
The opinion of the Eleventh Circuit Court of Appeals
in Shawn C. Rutland v. Warden, Smith State Prison,
No. 17-13226 (11th Cir. May 23, 2019), affirming the
district court’s dismissal of Petitioner’s § 2254
petition, is unpublished. App. at 1. The circuit court
denied a petition for rehearing and for rehearing en
banc in the case in an unpublished order entered on
July 17, 2019. App. at 9.

1

Statement of Jurisdiction
This case involves a decision of a circuit court of
appeals affirming the dismissal of a federal action in
the district court. Accordingly, this Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).
Jurisdiction of the appeal in the circuit court was
proper pursuant to 28 U.S.C. § 1291 and Rule 3 of
the Federal Rules of Appellate Procedure because it
was an appeal from a final judgment of a district
court. The district court had subject-matter
jurisdiction of the action below because the action
was a § 2254 Petition for a Writ of Habeas Corpus.
28 U.S.C. §§ 2241 (a) and (c); 2254 (a).

2

Constitutional and Statutory Provisions
Involved in Case
28 U.S.C. § 2244(d) provides:
(1) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court.
The limitation period shall run from the latest of—
(A) the date on which the judgment became final by
the conclusion of direct review or the expiration of
the time for seeking such review;
(B) the date on which the impediment to filing an
application created by State action in violation of the
Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such
State action;
(C) the date on which the constitutional right
asserted was initially recognized by the Supreme
Court, if the right has been newly recognized by the
Supreme Court and made retroactively applicable to
cases on collateral review; or
(D) the date on which the factual predicate of the
claim or claims presented could have been discovered
through the exercise of due diligence.
(2) The time during which a properly filed
application for State post-conviction or other
collateral review with respect to the pertinent
judgment or claim is pending shall not be counted
toward any period of limitation under this
subsection.

3

Statement of the Case
Petitioner Shawn C. Rutland (“Mr. Rutland”)
was convicted of armed robbery, hijacking of a motor
vehicle, and aggravated assault and was sentenced to
life imprisonment plus 20 years. Mr. Rutland was
convicted based entirely upon the eyewitness
identification of the victim, who had been carjacked
and shot and remained unconscious in the hospital
for four days following the shooting. The victim’s
identification of Mr. Rutland from either a tainted
photo array or a single photograph, conducted in the
hospital ICU six days after the shooting and while
the victim was still heavily sedated from surgery,
was rife with factors adversely affecting the
reliability of the eyewitness identification. Defense
counsel did not use at trial an expert witness in the
field of eyewitness identification to identify the
numerous problems with the eyewitness
identification of Mr. Rutland and the likelihood of a
misidentification.
At sentencing, the trial court instructed Mr.
Rutland as follows: “You have the right to file a
habeas corpus as to this sentence, and it has to be
filed within four years of the date the conviction
becomes final, either from direct review or from any
other kind of delay because of appellate review or
sentence review, but you have four years to file a
habeas corpus.” Following two appeals, the Court of
Appeals of Georgia affirmed Mr. Rutland’s
convictions and sentences on March 3, 2010.
Rutland v. State, A10A0281 (Ga. App. Mar. 3, 2010).
Mr. Rutland, who was represented by the same
public defender at trial and on direct appeal, did not
petition the Supreme Court of Georgia for certiorari
in the case.
4

Mr. Rutland was without the benefit of
counsel from the time his conviction became final in
March of 2010 until the time he hired undersigned
counsel to file a state habeas petition on his behalf in
or around November of 2012. Once undersigned
counsel was hired in late 2012, counsel had to obtain
and review all of Mr. Rutland’s records from both the
trial court and the appellate court levels, including
transcripts of the trial court proceedings, motions
filed, evidence in the case, appellate briefs filed in
the two appeals, and the appellate opinions. After
reviewing the entirety of the voluminous records,
counsel had to determine what legal issues were ripe
for review in a state habeas corpus action, interview
witnesses, and locate and retain a respected expert
in the field of eyewitness identification. Finally,
counsel had to draft a state petition for habeas
corpus on Mr. Rutland’s behalf.
On October 17, 2013, less than eleven months
from the date she became involved in the case,
undersigned counsel filed a state habeas petition on
Mr. Rutland’s behalf, which date was within the
four-year limitations period under Georgia law for
filing a state habeas action. Mr. Rutland asserted in
the habeas petition that his Sixth Amendment right
to effective assistance of counsel had been violated by
the performance of the public defender who
represented him at trial and on direct appeal. The
state habeas action involved substantial issues,
primarily pertaining to trial counsel’s failure to use
an expert in the field of eyewitness identification.
At Mr. Rutland’s state habeas hearing, a noted
national expert in the field of eyewitness
identification testified that the eyewitness
identification of Mr. Rutland was so impermissibly
5

suggestive as to give rise to a very substantial
likelihood of irreparable misidentification of Mr.
Rutland as the victim’s attacker. Trial counsel for
Mr. Rutland testified unequivocally at the habeas
hearing that he had no strategic reason for failing to
use an expert witness in the field of eyewitness
identification in his defense of Mr. Rutland. He also
testified that, under Georgia law at the time of Mr.
Rutland’s trial, it would have been reversible error
for the court to have prohibited testimony from an
eyewitness identification expert since the
identification was the sole evidence in the case.
The state habeas court, to the dismay of
undersigned counsel, ultimately denied Mr.
Rutland’s petition. Mr. Rutland thereafter filed a
petition for certificate of probable cause with the
Supreme Court of Georgia. The Supreme Court of
Georgia, again to the consternation of undersigned
counsel, denied Mr. Rutland’s petition for certificate
of probable cause by Order entered on June 1, 2015.
Rutland v. Williams, S15H0933 (Ga. Jun. 1, 2015).
App. at 82.
On May 18, 2016, Mr. Rutland, through
undersigned counsel, filed a Petition for Writ of
Habeas Corpus pursuant to 28 U.S.C. § 2254 in the
United States District Court for the Middle District
of Georgia, Shawn C. Rutland v. Stanley Williams,
Civil Action No. 5:16-CV-00182, asserting the denial
of his Sixth Amendment right to effective assistance
of counsel. App. at 62. Respondent filed a Motion to
Dismiss the petition as being untimely under the
Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”), since the petition was filed more
than one year from the date Mr. Rutland’s state
conviction was deemed final. App. at 59.
6

Mr. Rutland filed a Response to the Motion to
Dismiss, arguing that he was entitled to the benefit
of equitable tolling based upon affirmatively
misleading instructions of the trial court at
sentencing that he had four years from the
conclusion of his case in which to file any type of
habeas petition, including a federal habeas petition.
App. at 38. The magistrate concluded in its report
and recommendation that Mr. Rutland was not
entitled to equitable tolling. App. at 25. The district
court agreed, dismissed Mr. Rutland’s federal habeas
petition as untimely, and denied him a certificate of
appealability. App. at 21.
Mr. Rutland thereafter filed his Application
for Certificate of Appealability with the Eleventh
Circuit Court of Appeals, asserting that he was
entitled to equitable tolling of the AEDPA one-year
limitations period due to extraordinary
circumstances and that AEDPA’s one-year
limitations period violated his due process rights.
The circuit court issued a Certificate of Appealability
as to the following question:
Whether the state trial court’s
instruction that petitioner has “four
years to file a habeas corpus”
affirmatively misled petitioner such
that it qualifies as an “extraordinary
circumstance” warranting equitable
tolling.
App. at 11.
After the parties submitted their respective
briefs in the case, the circuit court issued its Opinion
on May 23, 2019, affirming the district court’s
dismissal of Mr. Rutland’s §2254 petition as
7

untimely. Rutland v. Warden, Smith State Prison,
No. 17-13226 (11th Cir. May 23, 2019). App. at 1. In
its Opinion, the circuit court specifically found that
there was merit to Mr. Rutland’s position that the
trial court affirmatively misled him at sentencing
into thinking that he had four years in which to file
any type of habeas petition—be it state or federal.
However, the circuit court determined that
any such period of equitable tolling “would have
lapsed the moment Rutland procured the assistance
of [undersigned] counsel.” Applying this neverbefore-used rule for equitable tolling (that such
tolling lapses immediately upon procurement of
counsel), the circuit court concluded that equitable
tolling in Mr. Rutland’s case ended on (and the “new
start date” for AEDPA’s one-year statute of
limitations began on), November 30, 2012, the date
that undersigned counsel was retained to file a state
habeas petition on Mr. Rutland’s behalf. Thus,
according to the circuit court’s calculations, 321 days
passed between the “new start date” of November 30,
2012, and the filing of Mr. Rutland’s state habeas
petition on October 17, 2013. Beginning on October
17, 2013, the AEDPA limitations period was
statutorily tolled during the pendency of the state
habeas proceedings. But, once those proceedings
were over—using the circuit court’s new rule as to
the effect of obtaining counsel on equitable tolling—
Mr. Rutland would have had 45 days left in which to
file his federal habeas petition. Since Mr. Rutland
filed his federal habeas petition outside of this 45day period, the circuit court concluded that the
petition was untimely. “Thus, even with the benefit
of equitable tolling, Rutland’s habeas petition was
indisputably untimely and properly dismissed.”

8

Mr. Rutland filed a timely Petition for
Rehearing En Banc or for Panel Rehearing with the
circuit court, asserting that the panel decision
created an improper and unworkable fiction—never
before recognized and unsupported by authority—
that the period of equitable tolling of the one-year
statute of limitation of AEDPA for filing a §2254
petition (which tolling was necessitated by
affirmatively misleading instructions of the trial
court at sentencing), automatically lapses the
moment the defendant procures assistance of counsel
for filing a state habeas petition. As Mr. Rutland
argued, if equitable tolling was warranted based
upon the sentencing court’s misleading instructions,
then the limitations period should have been tolled
for a period of four years from the date the conviction
was final, or until March 15, 2014—the time period
given in the misleading instruction. Mr. Rutland
cited case law from other circuits supporting the
position that the length of the tolling period should
be in accordance with the substance of the
misleading instructions that warranted equitable
tolling.
As Mr. Rutland asserted in his petition for
rehearing, since his state habeas action was already
pending on March 15, 2014—when equitable tolling
should have lapsed—the limitations period would
have then been statutorily tolled until the conclusion
of the state habeas action, on July 6, 2015. From that
date, Mr. Rutland would then have had one year, or
until July 6, 2016, in which to file his federal habeas
petition. Mr. Rutland did in fact file his federal
habeas action on May 18, 2016, several months prior
to the July 6, 2016, deadline. Mr. Rutland asked the
circuit court to recognize that its ruling created an
improper fiction and to reconsider its decision. The
9

circuit court denied Mr. Rutland’s request for a
rehearing by Order entered July 17, 2019. App. at 9.

10

Reasons for Granting the Writ
This Court should grant a writ of certiorari to Mr.
Rutland because the Eleventh Circuit Court of
Appeals’ Opinion effectively created a new bright-line
rule that equitable tolling of the one-year period of
limitations under AEDPA for a federal habeas action
automatically lapses the instant a petitioner procures
the assistance of legal counsel, which novel rule is
unsupported by any authority from this Court, from
the Eleventh Circuit, or from other circuit courts, and
which rule diminishes the discretion afforded to
district courts to determine any period of equitable
tolling based upon principles of equity.
The Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”) provides a one-year
statute of limitation from the date a conviction is
deemed final in which a state prisoner may seek
federal habeas corpus relief. 28 U.S.C. § 2244(d)(1).
For purposes of AEDPA, a conviction is deemed final
“the date on which the judgment became final by the
conclusion of direct review or the expiration of the
time for seeking such review.” 28 U.S.C. §
2244(d)(1)(A). A petitioner is required to exhaust all
of his or her state court remedies before filing a 28
U.S.C. § 2254 habeas corpus petition in federal court.
Vazquez v. Sec'y, Florida Dep't of Corrections, 827
F.3d 964, 966 (11th Cir. 2016); 28 U.S.C. § 2254
(b)(1)(A).
AEDPA provides a means by which the oneyear limitations period may be statutorily tolled.
Pursuant to 28 U.S.C. § 2244(d)(2), the “time during
which a properly filed application for State postconviction or other collateral review with respect to
the pertinent judgment or claim is pending shall not
11

be counted toward any period of limitation under this
subsection.”1 The Eleventh Circuit Court of Appeals
has interpreted AEDPA such that the filing of a state
habeas petition, even if properly filed within the time
allowed by state law for the filing of a state court
habeas action, will not statutorily toll the limitations
period for filing a § 2254 habeas if the state habeas
petition is filed more than one year after the
conclusion of the direct appeal. Tinker v. Moore, 255
F.3d 1331 (11th Cir. 2001). The state habeas petition
must be filed before the AEDPA limitations period
has expired in order for statutory tolling to apply.
Webster v. Moore, 199 F.3d 1256, 1299 (11th Cir.
2000).
This Court has determined that AEDPA’s oneyear statute of limitations may also be tolled for
“equitable” reasons. Holland v. Florida, 560 U.S.
631, 645, 130 S. Ct. 2549 (2010). A litigant seeking
equitable tolling due to his untimely filing of a § 2254
petition “bears the burden of establishing two
elements: (1) that he has been pursuing his rights
diligently, and (2) that some extraordinary
1

A properly and timely filed petition in state court only tolls the
time remaining within the federal limitation period. As the
Eleventh Circuit has noted: “[C]are must be taken to assure
that sufficient time remains within the federal statutory period
to file the federal petition. For example, if the federal limitation
period begins to run on January 1, and the state petition is
properly filed on July 1, six months of the federal limitation
period has run and petitioner only has six months left from the
time the state court rules on his state petition to file his federal
petition. However, should a petitioner wait to file his state
petition until only a week remains before the expiration of the
one year federal limitation period, he or she will only have a
week left to file a federal petition before the federal limitation
period has expired.” Tinker v. Moore, 255 F.3d 1331 (11th Cir.
2001).

12

circumstance stood in his way.” Pace v. DiGuglielmo,
544 U.S. 408, 418, 125 S. Ct. 1807 (2005). A court’s
determination of whether a petitioner is entitled to
equitable tolling is fact-sensitive and “requires the
examination of the facts in each case.” Arthur v.
Allen, 452 F.3d 1234, 1253 (11th Cir. 2006).
The Eleventh Circuit Court of Appeals has
found equitable tolling to be warranted in cases
where a pro se petitioner was affirmatively misled by
a government official in connection with the filing of
a habeas petition. In Spottsville v. Terry, 476 F.3d
1241 (11th Cir. 2007), that Court reversed the
dismissal of a state prisoner’s § 2254 petition, based
upon misleading advice given to the petitioner by the
state habeas court. The state habeas court had
instructed the petitioner to file a notice of appeal of
the denial of his state habeas petition and a petition
for certificate of probable cause with the Superior
Court clerk, rather than filing the certificate of
probable cause petition with the clerk of the Georgia
Supreme Court. Spottsville, 476 F.3d at 1245. The
first notice to the petitioner that he had been misled
by the state habeas court came when the Supreme
Court dismissed his appeal. By that time, the
AEDPA one-year limitations period for filing a
federal habeas petition had expired. Id. at 12451246. The Spottsville Court found that the petitioner
was entitled to equitable tolling of the AEDPA
limitations period based upon the affirmatively
misleading instructions of the state habeas court. Id.
at 1246.
The Spottsville Court held that, because the
petitioner “relied on the misleading instructions of
the Superior Court of Tattnell County, equity
requires that Spottsville's limitations period be tolled
13

during the pendency of his attempted appeal of the
denial of his state habeas petition.” Spottsville, 476
F.3d at 1246. The respondent Warden in Spottsville
argued that the petitioner was “an experienced pro
se litigant who could have either avoided or
discovered his error and still filed a federal petition
before the limitations period expired.” Id. at 1245.
The Eleventh Circuit specifically rejected such
argument, finding that petitioner Spottsville had
“followed the instructions of the state court to the
letter” and that it was “unreasonable to expect a pro
se litigant to second-guess or disregard an
instruction in a written order of a court.” Id. See
also, Lawrence v. Florida, 421 F.3d 1221, 1226 (11th
Cir. 2005) (extraordinary circumstances warranting
equitable tolling include instances "when the State's
conduct prevents the petitioner from timely
filing”); Knight v. Schofield, 292 F.3d 709, 712 (11th
Cir. 2002) (granting equitable tolling to petitioner
misled by the Clerk of the Supreme Court of
Georgia).
Other circuits have similarly applied equitable
tolling in cases where a § 2254 petitioner had been
affirmatively misled by a Judge’s unclear or
erroneous instruction. In United States v. Patterson,
211 F.3d 927 (5th Cir. 2000), a pro se petitioner
moved to withdraw his federal § 2255 habeas petition
so that he could obtain the services of an experienced
writ-writer and re-file at a later date. The district
court granted the motion after the expiration of the
AEDPA limitations period but then dismissed
petitioner’s subsequently re-filed habeas petition as
being untimely. Patterson, 211 F.3d at 931. The Fifth
Circuit Court of Appeals overturned the dismissal of
the petition on the grounds of equitable tolling.
According to the Patterson Court, the language used
14

by the district court, when it allowed the petitioner
to dismiss his initial habeas petition, misled him into
believing that he could refile his pleadings and still
be timely. Id.
In Riddle v. Kemna, 523 F.3d 850 (8th Cir.
2008), the district court dismissed a pro se
petitioner’s § 2254 habeas petitioner as being
untimely under the one-year limitations period of
AEDPA. The Eighth Circuit Court of Appeals
remanded the case to the district court for a
determination to be made whether the petitioner was
entitled to the benefit of equitable tolling. Regarding
this issue, the Eighth Circuit Court found as follows:
Riddle may receive the benefit of
equitable tolling if he can establish that
a court’s conduct "lulled the movant into
inaction through reliance on that
conduct." See United States v.
Hernandez, 436 F.3d 851, 858-59 (8th
Cir. 2006); Curtiss v. Mount Pleasant
Corr. Facility, 338 F.3d 851, 855 (8th
Cir. 2003); Gassler, 255 F.3d at 495;
Kreutzer, 231 F.3d at 463. See also
Spottsville v. Terry, 476 F.3d 1241,
1245-46 (11th Cir. 2007) (equitable
tolling allowed where state habeas court
"affirmatively misled" petitioner);
Brinson v. Vaughn, 398 F.3d 225, 23031 (3d Cir. 2005) (equitable tolling
justified where a "court has misled a
party regarding the steps that the party
needs to take to preserve a claim");
Alexander v. Cockrell, 294 F.3d 626,
629-30 (5th Cir. 2002) (equitable tolling
allowed when circuit court's previous
15

opinion misled petitioner by stating he
could later file for habeas relief). Cf.
Pliler v. Ford, 542 U.S. 225, 234, 124 S.
Ct. 2441, 159 L.Ed.2d 338 (2004)
(remanding "given the Court of Appeal's
concern that respondent has been
affirmatively misled" by the district
court); id. at 235, 124 S. Ct. 2441
(O'Connor, J., concurring) ("if the
petitioner is affirmatively misled, either
by the court or by the State, equitable
tolling might well be appropriate"). . .
Riddle, 523 F.3d at 857. As the Riddle Court noted, a
determination of equitable tolling will depend on the
individual facts of the case. Id.
In Brinson v. Vaughn, 398 F.3d 225 (3rd Cir.
2005), the Third Circuit Court of Appeals upheld a
district court’s finding of equitable tolling in a §2254
habeas action, holding that equitable tolling is
proper when a party “has in some extraordinary way
been prevented from asserting his or her rights. . .
One such potential extraordinary situation is where
a court has misled a party regarding the steps that
the party needs to take to preserve a claim. Brinson,
398 F.3d at 230.
Similarly, in Rudin v. Myles, 781 F.3d 1043
(9th Cir. 2015), the Ninth Circuit Court of Appeals
reversed a district court’s order dismissing a § 2254
petition as untimely, finding that the petitioner was
entitled to the benefit of equitable tolling. In that
opinion, the Ninth Circuit Court noted that, while a
petitioner bears a heavy burden to show that he or
she is entitled to equitable tolling “lest the exceptions
swallow the rule,” a petitioner will be entitled to
16

tolling if extraordinary circumstances beyond a
petitioner’s control were the cause of the
untimeliness. Rudin, 781 F.3d at 1054-1055. “At
bottom, the purpose of equitable tolling is to soften
the harsh impact of technical rules which might
otherwise prevent a good faith litigant from having
[his or her] day in court.” Id. at 1055.
Finally, this Court has specifically cautioned
federal district courts about the dangers of providing
advice regarding AEDPA requirements and
deadlines, due to the risk of the courts erring in their
instructions and affirmatively misinforming pro se
petitioners of the same. Pliler v. Ford, 542 U.S. 225,
232-33, 124 S. Ct. 2441 (2004). As the Supreme Court
noted in Pliler, procedural instructions "run the risk
of being misleading." Pliler, 542 U.S. at 232. Justice
O’Connor in a concurring opinion in Pliler noted
further as follows: "[I]f the petitioner is affirmatively
misled, either by the court or by the State, equitable
tolling might well be appropriate." Id. at 235.
In the case at bar, Mr. Rutland asserted that
he was entitled to equitable tolling due to the
misleading instructions given to him by the
sentencing court that he had four years from the
conclusion of any direct appeal in which to file a
petition for habeas corpus. “You have the right to file
a habeas corpus as to this sentence, and it has to
be filed within four years of the date the conviction
becomes final, either from direct review or from any
other kind of delay because of appellate review or
sentence review, but you have four years to file a
habeas corpus.” In its Opinion, the Eleventh
Circuit applied the principles set forth in Holland
and the other cases cited above and agreed that Mr.
Rutland’s claim of entitlement to equitable tolling
17

had merit. However, the circuit court held that,
even if the sentencing court’s language affirmatively
misled Mr. Rutland, warranting equitable tolling,
any period of equitable tolling would have ended in
November 2012 when current counsel began
representing him.
The Rutland Opinion failed to cite any
controlling authority—from either a previous
Eleventh Circuit decision or from any decision of the
United States Supreme Court—for its assertion that
equitable tolling automatically lapses the minute
that counsel becomes involved in a case. In fact, the
only cited authority in the unpublished Rutland
Opinion for the circuit court’s bright-line conclusion
is to a footnote in an unpublished, per curiam opinion
of the Ninth Circuit of Appeals with a strong dissent.
The Rutland Opinion stated as follows:
The state is therefore correct that the
period for equitable tolling would have
lapsed the moment Rutland procured
the assistance of counsel, which
happened no later than November 30,
2012. Cf. Torres v. Long, 527 F. App’x
652, 654 n.1 (9th Cir. 2013)
(unpublished) (per curiam) (“Because
petitioners are not entitled to equitable
tolling on the basis of language abilities
once they have assistance from a
translator, we would be on solid ground
to presume any entitlement to equitable
tolling ended no later than December
10, 2004 [the day the petitioner filed his
second state court petition with a
translator’s assistance.].” (emphasis
added and citation omitted)).
18

App. at 7. The footnote in the unpublished, per
curiam Torres opinion has no precedential authority
whatsoever. Moreover, the majority opinion in Torres
affirmatively shows that the Ninth Circuit did not
apply the bright-line rule suggested in the footnote
but instead looked at the individual facts of the case
and applied equitable principles in determining
when equitable tolling ended. Rather than finding
that equitable tolling ended on December 10, 2004,
the date that Mr. Torres without doubt had the
assistance of a translator, the majority opinion held
as follows: “We can presume Torres was entitled to
equitable tolling until March 23, 2005, which, as
noted, is the time by which he admittedly had gained
sufficient English language skills.” Torres, 527 F.
App’x at 654.
The Eleventh Circuit’s new bright-line test in
Rutland for when equitable tolling automatically
ends does not comport with established authority for
the application of equitable tolling. This Court, in
holding that AEDPA's statute of limitations period is
subject to equitable tolling, recognized that habeas
corpus has always been governed by principles of
equity—rather than bright-line rules. In Holland,
supra, this Court stated as follows: “We recognize
that AEDPA seeks to eliminate delays in the federal
habeas review process. . . But AEDPA seeks to do so
without undermining basic habeas corpus principles
and while seeking to harmonize the new statute with
prior law, under which a petition's timeliness was
always determined under equitable principles. . .
When Congress codified new rules governing this
previously judicially managed area of law, it did so
without losing sight of the fact that the ‘writ of
habeas corpus plays a vital role in protecting
19

constitutional rights.’ It did not seek to end every
possible delay at all costs.” Holland, 560 U.S. at 64849. The Holland Court recognized that "AEDPA's
limitations period is not particularly long," and
equitable tolling would therefore be necessary for
prisoners who experienced unforeseen obstacles.
Holland, 560 U.S. at 647.
In applying the equitable principles
announced in Holland to the strict time
requirements of AEDPA, the Ninth Circuit Court of
Appeals stated as follows: “As we have reiterated on
numerous occasions, the purpose of equitable tolling
is to ‘prevent the unjust technical forfeiture of causes
of action.’ That is, equitable tolling entitles a
prisoner who experiences an unexpected hardship to
additional time when he would otherwise be denied
his day in court. . . Allowing courts to forfeit a
petitioner's right to equitable tolling because in the
court's judgment the prisoner could have filed earlier
in the statute-of-limitations period had he scheduled
his legal work differently would undermine the
equitable principles that underlie the use of
equitable tolling in habeas cases.” Grant v.
Swarthout, 862 F.3d 914, 921 (9th Cir. 2017). See
also, Booth v. United States, 914 F.3d 1199, 1207 (9th
Cir. 2019) (“In applying equitable tolling, courts
‘follow a tradition in which courts of equity have
sought to relieve hardships which, from time to time,
arise from a hard and fast adherence to more
absolute legal rules, which, if strictly applied,
threaten the evils of archaic rigidity.’”).
Equitable tolling is now and has always been
fact-sensitive. Spottsville, 476 F.3d at 1245 (noting
that equitable tolling "requires the examination of
the facts in each case"). As the Fifth Circuit Court of
20

Appeals has noted, "[w]e must be cautious not to
apply the statute of limitations too harshly. . . This is
why we look to the facts and circumstances of each
case to determine whether the district court abused
its discretion in declining to apply equitable tolling.”
Prieto v. Quarterman, 456 F.3d 511, 514 (5th Cir.
2006). There are no bright-line rules as to whether or
for how long equitable tolling applies. See, Mashburn
v. Comm'r, Ala. Dep't of Corr., No. 15-11408 (11th
Cir. Oct. 26, 2017) (holding that “there is no brightline rule requiring that, in every case, equitable
tolling must end on the precise date the petitioner
receives notice of an adverse order”).
If a petitioner relies on the misleading advice
of a court regarding the due date for filing a habeas
petition, equitable principles would support the
tolling of the limitations period for a period of time in
accordance with the substance of the misleading
instructions that warranted the equitable tolling in
the first place. This proposition is supported by case
law from other circuits. In Sossa v. Diaz, 729 F.3d
1225 (9th Cir. 2013), the Ninth Circuit Court of
Appeals concluded that the petitioner was entitled to
equitable tolling of AEDPA’s one-year limitation
period on the ground that the petitioner had relied
on a magistrate judge's order extending the filing
deadline beyond the statutory deadline. Sossa, 729
F.3d at 1230. The Circuit Court held that the
magistrate judge's orders affirmatively led Sossa to
believe that he had until June 9, 2008 to file his
petition, which was after the expiration of the
AEDPA deadline. Accordingly, that Court found that
Sossa was entitled to equitable tolling of the statute
of limitations until the date given by the magistrate
in his misleading instructions and relied upon by
petitioner—June 9, 2008. Id.
21

Similarly, in Prieto, supra, the district court
had given the petitioner additional time for the filing
of his federal habeas petition, with a due date that
turned out to be long after the expiration of the
AEDPA statute of limitations. 456 F.3d at 514-15.
The Fifth Circuit determined that “the district
court's order granting him additional time for the
express purpose of filing his petition at a later date
was crucially misleading. Prieto relied on the district
court's order in good faith and to his detriment when
he filed his petition. As Prieto submitted his petition
within the time expressly allowed him by the district
court, he is entitled to equitable tolling.” Prieto, 456
F.3d at 515. Thus, the timing of the equitable tolling
was in accordance with the substance of the
misleading instructions.
In Mr. Rutland’s case, the sentencing court
told him that he had four years from the conclusion
of his direct appeal in which to file any type of
habeas corpus action. Mr. Rutland’s direct appeal
was concluded on March 15, 2010. Thus, as per the
sentencing court’s instructions, Mr. Rutland was
lulled into believing that he had four years from that
date, which would be March 15, 2014, in which to file
any type of habeas corpus, including a federal
habeas. However, since Mr. Rutland was required to
exhaust his state habeas remedies before pursuing
his federal habeas relief, Mr. Rutland had to file his
state habeas action first. He did this on October 17,
2013.
If equitable tolling was warranted based upon
the sentencing court’s misleading instructions, then
the limitations period should have been tolled for a
period of four years from the date the conviction was
final, or until March 15, 2014—the time period given
22

in the misleading instruction. Since Mr. Rutland’s
state habeas was already pending on March 15,
2014, the limitations period would have then been
statutorily tolled until the conclusion of the state
habeas, on July 6, 2015. From that date, Mr. Rutland
would then have had one year, or until July 6, 2016,
in which to file his federal habeas petition. Mr.
Rutland did in fact file his federal habeas action on
May 18, 2016, several months prior to the July 6,
2016, deadline.
The Eleventh Circuit’s new bright-line test in
Rutland is not only unsupported by authority, it also
fails to comport with the real life practice of law.
When undersigned counsel took on the
representation of Mr. Rutland, she had no
expectation, from statutory or case law precedent,
that equitable tolling—even if it was later
determined by counsel to possibly be warranted—
would expire that first day of her representation. In
essence, the Eleventh Circuit told undersigned
counsel the following in its decision in Rutland: You
should have guessed that we would have agreed with
you, counsel, that the trial court’s instructions at Mr.
Rutland’s sentencing were affirmatively misleading
and could be relied upon to support the
extraordinary circumstance necessary for equitably
tolling the deadline for filing a federal petition for
writ of habeas corpus (despite the fact that a federal
magistrate judge and a federal district court judge
later reviewed that same comment and determined
that Mr. Rutland was not entitled to equitable
tolling). But then, counsel, (the Eleventh Circuit’s
Opinion suggests), you should also have guessed that
we would create a new rule concerning this equitable
tolling in which the tolling would cease the moment
you were retained to handle Mr. Rutland’s state
23

habeas petition (despite the fact that there was no
controlling authority from the Eleventh Circuit or
the United States Supreme Court holding that
equitable tolling lapses the first day of legal
representation). And, counsel, those guesses should
have guided your timing decisions as they related to
the filing of Mr. Rutland’s state petition for writ of
habeas corpus and, when that was unsuccessful, the
timing of the federal petition for writ of habeas
corpus.
The new, bright-line rule from Rutland that
equitable tolling lapses the moment a petitioner,
such as Mr. Rutland, obtains counsel, flatly
contravenes the equitable principles announced in
Holland. The circuit court’s conclusion infringes
upon the “the traditional power of the courts to apply
the principles ... of equity jurisprudence.” Cal. Pub.
Employees' Ret. Sys. v. ANZ Sec., Inc., 137 S. Ct.
2042, 2050, 198 L.Ed.2d 584 (2017). Mr. Rutland
and other § 2254 petitioners in his position should be
entitled to the benefit of such equitable principles, in
order to prevent the unjust technical forfeiture of
their constitutional rights.
This Court should grant certiorari to make it
uniformly clear that equitable tolling of AEDPA’s
one-year period of limitations does not automatically
lapse upon a petitioner’s procurement of legal
counsel, as found by the Eleventh Circuit Court of
Appeals in Mr. Rutland’s case. Instead, whether and
for how long equitable tolling applies must be
determined on a case-to-case basis, looking at the
individual facts of the case and applying principles of
equity.

24

Conclusion
For all of the reasons set forth herein,
Petitioner Shawn C. Rutland respectfully moves this
Court to grant certiorari in this case.

/s/ Laura D. Hogue
LAURA D. HOGUE
Georgia Bar No. 786090
Counsel for Petitioner
Hogue Hogue Fitzgerald & Griffin
341 Third Street
P. O. Box 1795
Macon, GA 31202-1795
(478) 750-8040 telephone
(478) 738-0859 facsimile
laura@hogueandhogue.com

25

